Audit of USAID/Senegal's Monitoring of the
Performance of its HIV/AIDS Program


Audit Report No. 7-685-02-002-P

March 8, 2002




                Dakar, Senegal
U.S. Agency for
INTERNATIONAL
 DEVELOPMENT

RIG/Dakar

March 8, 2002


MEMORANDUM
FOR:              Donald Clark, USAID/Senegal Director

FROM:             Dennis Bryant, Acting RIG/Dakar

SUBJECT:          Audit of USAID/Senegal’s Monitoring of the Performance of its
                  HIV/AIDS Program (Report No. 7-685-02-002-P)

This report presents the results of our audit on USAID/Senegal’s monitoring of the
performance of its HIV/AIDS program. In finalizing this report, we considered
management’s comments on our draft report. We have included those comments, in
their entirety, as Appendix II of this report.

This report contains three recommendations. Based on the Mission’s responses and
actions started, management decisions have been reached on Recommendations No.
1, 2.1, and 2.2. In accordance with USAID guidance, USAID’s Office of
Management Planning and Innovation, M/MPI/MIC, is responsible for determining
when final action has occurred. To close these recommendations, USAID/Senegal
should submit evidence of final actions to M/MPI/MIC.

I appreciate the cooperation and courtesy extended to my staff during the audit.




                                                                                     1
Table of   Summary of Results                                             3
Contents
           Background                                                     4

           Audit Objectives                                               5

           Audit Findings

                  Did USAID/Senegal monitor performance of its HIV/       6
                  AIDS program in accordance with Automated Directives
                  System (ADS) guidance?

                         Performance Monitoring Plan Should be Improved   7

                         Data Quality Assessments Should Be Performed     9
                         and Documented

                  Is USAID/Senegal achieving intended results from its
                  HIV/AIDS program?                                       11

                  What is the status of USAID/Senegal’s efforts to meet   15
                  anticipated HIV/AIDS reporting requirements?

           Management Comments and Our Evaluation                         18

           Appendix I – Scope and Methodology                             19

           Appendix II – Management Comments                              22

           Appendix III – Rapid Scale-Up, Intensive Focus and Basic       28
           Countries

           Appendix IV – Summary of USAID/Senegal’s Selected
           Performance Monitoring Controls                                29




                                                                               2
Summary  of for
 USAID funding    HIV/AIDS funding has increased dramatically over the last three years- from
Results           $142 million in fiscal year 1999 to over $300 million in fiscal year 2001. This
                  increase in funding has created a demand for greater accountability on the part of
                  USAID and its operating units, both as to monitoring progress and achieving
                  intended results. (See pages 4-5)

                  USAID procedures for monitoring programs, including its HIV/AIDS programs,
                  are contained in its Automated Directives System (ADS). The ADS sets forth
                  requirements that operating units must follow in managing their programs,
                  including, but not limited to, the establishment of indicators, identification of data
                  sources, and the planned method by which data are to be collected. We tested
                  USAID/Senegal’s monitoring of its HIV/AIDS program against eleven controls
                  contained in the ADS. USAID/Senegal’s performance control system did not
                  comply with four of the eleven controls. The Mission did not adequately identify
                  data sources, disclose data limitations, and include procedures for data quality
                  assessments in its performance monitoring plan (PMP). Additionally, the Mission
                  did not perform or properly document data quality assessments for the selected
                  HIV/AIDS indicators. We recommend that USAID/Senegal implement the
                  controls by amending its PMP to include specific data sources, data limitations,
                  and data quality assessment procedures, and by performing and documenting data
                  quality assessments for all indicators used to manage its HIV/AIDS program.
                  (See pages 6-11)

                  Results-oriented management must be used to reasonably ensure that programs
                  achieve their intended results. USAID/Senegal uses twenty indicators to manage
                  the performance of its HIV/AIDS program. Auditors selected three of the twenty
                  indicators to evaluate whether USAID/Senegal was achieving intended results
                  from its HIV/AIDS program: (1) proportion of persons in high-risk groups
                  reporting condom use with non-regular partner during the most recent sexual act
                  in the past 12 months for HIV prevention, (2) number of “PROTEC” brand sales
                  points1, and (3) proportion of persons who cite condoms as means to prevent STI
                  (Sexually Transmitted Infections)/HIV/AIDS transmission. A review of the three
                  indicators showed that the Mission was achieving its intended results with regard
                  to the second indicator, “number of PROTEC brand sales points”. Targets for the
                  other two indicators were not due until the end of 2001 and 2003, so they could
                  not be evaluated at the time of the audit. Therefore, we are not making any
                  recommendation in regard to this audit objective. (See pages 11-15)

                  To improve the monitoring and reporting process for its HIV/AIDS program,
                  USAID has drafted monitoring and evaluation guidance entitled “USAID’s
                  Expanded Response to the Global HIV/AIDS Pandemic”. The guidance

                  1
                    PROTEC is the condom brand. And, sales points are the sales locations such as pharmaceuticals,
                  restaurants, hotels, supermarkets, etc.


                                                                                                                     3
             establishes several global targets USAID expects to achieve because of the
             additional funding it anticipates and requires missions to routinely report and
             monitor their HIV/AIDS programs using standard indicators. As a recipient of
             significant additional funding, USAID/Senegal is currently taking action to meet
             its additional monitoring and reporting requirements under the new guidance.
             (See pages 15-17)

             In response to the draft report, USAID/Senegal accepted our recommendations to
             update its Performance Monitoring Plan (PMP) and to perform and document data
             quality assessments for all the indicators used to monitor the performance of its
             HIV/AIDS program. This report contains three recommendations and management
             decisions have been reached on all three.


Background   USAID funding for HIV/AIDS has increased dramatically over the past three
             years–from $142 million in fiscal year 1999 to over $300 million in fiscal year
             20012 (see graph below). USAID is organizing its response to HIV/AIDS around
             the following three categories of countries: rapid scale-up, intensive focus, and
             basic. These categories were developed based on 1) the amount of resources that
             USAID intends to apply and 2) expectations as to when a measurable impact
             might be achieved. USAID/Senegal is an intensive focus country, which means
             USAID will increase resources which will be targeted to reduce prevalence rates
             and provide other HIV related services within three to five years. (See Appendix
             III for a more complete description of these categories.)


                                                                  Graph of USAID’s HIV/AIDS Funding
                                                                             By Fiscal Year

                                                            350
                                                            300
                                                            250
                                      Millions of Dollars




                                                            200
                                                            150
                                                            100
                                                            50
                                                             0
                                                                      1999         2000       2001



             Senegal, which shares its borders with Mauritania, Mali, Guinea, Guinea-Bissau
             and Gambia, is one of thirteen countries classified as an intensive focus country.
             Senegal, with a population of about 8.2 million inhabitants, has one of the lowest
             2
                 Information was provided by USAID and is unaudited.


                                                                                                      4
                   levels of prevalence and incidence of HIV/AIDS infection in sub-Saharan Africa
                   and has managed to maintain the prevalence rate relatively stable at around 1.4%.
                   Yet, the prevalence rate is considerably higher in some high-risk groups, such as
                   female sex workers, whose prevalence rate was reported at 33.3% in Ziguinchor
                   in 1997. The country’s low HIV prevalence rate of 1.4% is attributed to a
                   combination of efforts ranging from early and aggressive intervention and
                   involvement to a conservative culture governing sexual behavior. The results of
                   these efforts appear to be higher levels of sexual abstinence and greater use of
                   condoms among young adults. Senegalese health professionals cite early
                   intervention and assistance by the U.S. since the 1980s as one of the contributing
                   factors of their success and note that the U.S. should continue to play an active
                   role in assisting the country to control Sexually Transmitted Infection (STI) and
                   AIDS. According to USAID, Mission funding for HIV/AIDS and related
                   programs for fiscal year 2000 was about $4 million.

                   There has been much interest in monitoring the impact of USAID assistance on
                   the HIV/AIDS epidemic. In March 2000, USAID published a handbook that
                   discusses standard indicators for monitoring and evaluating HIV/AIDS programs.
                   In February 2001, USAID issued monitoring and evaluation guidance entitled
                   “USAID’s Expanded Response to the Global HIV/AIDS Pandemic”, which
                   summarizes new reporting requirements for USAID’s HIV/AIDS programs. And,
                   in March 2001, the U.S. General Accounting Office (GAO) issued a report
                   entitled “USAID’s Fight Against HIV/AIDS in Africa”.3 The GAO report
                   observed that USAID had contributed to the fight against HIV/AIDS in sub-
                   Saharan Africa, but that missions and regional offices used inconsistent indicators
                   to measure performance, data collection was sporadic, and there was no
                   requirement for missions and regional offices to regularly report the data they
                   collected. GAO recommended that USAID select standard indicators, gather
                   performance data on a regular basis, and report this data to a unit, to be designated
                   by the USAID Administrator, for analysis.



Audit Objectives   This audit is one of a series of audits to be conducted worldwide of USAID’s
                   monitoring of the performance of its HIV/AIDS program at the operating unit level.
                   The Performance Audits Division of USAID’s Office of Inspector General (OIG) is
                   leading the audits. The Regional Inspector General, Dakar (RIG/Dakar) conducted
                   this audit.

                   The audit objectives and the scope and methodology for the audit were developed in
                   coordination with USAID's HIV/AIDS Division in the Bureau for Global Programs,
                   Field Support and Research. RIG/Dakar performed this audit in Senegal to review


                   3
                    U.S. Agency for International Development Fights AIDS in Africa, but Better Data Needed to
                   Measure Impact (GAO-01-449, March 2001).


                                                                                                                 5
                 USAID/Senegal’s HIV/AIDS program and specifically, to answer the following
                 audit objectives:

                 •   Did USAID/Senegal monitor performance of its HIV/AIDS program in
                     accordance with Automated Directives System (ADS) guidance?

                 •   Is USAID/Senegal achieving intended results from its HIV/AIDS program?

                 •   What is the status of USAID/Senegal’s efforts to meet anticipated HIV/AIDS
                     reporting requirements?

                 Appendix I describes the audit’s scope and methodology.



Audit Findings   Did USAID/Senegal monitor performance of its HIV/AIDS program in
                 accordance with Automated Directives System (ADS) guidance?

                 USAID/Senegal generally monitored performance of its HIV/AIDS program in
                 accordance with USAID’s ADS, which outlines the agency’s policies and
                 procedures for implementing a performance monitoring system. However, we noted
                 some weaknesses in four areas of the Mission’s performance monitoring system.
                 The areas were data source identification, data limitation disclosure, quality
                 assessment procedures, and data quality assessments (see Appendix IV).

                 To answer the audit objective, we selected the following three performance
                 indicators in USAID/Senegal's Performance Monitoring Plan (PMP): (1) proportion
                 of persons in high-risk groups reporting condom use with non-regular partner during
                 the most recent sexual act in the past 12 months for HIV prevention, (2) number of
                 “PROTEC” Brand sales points, and (3) proportion of persons who cite condoms as a
                 means to prevent Sexually Transmitted Infections (STI)/HIV/AIDS transmission.
                 We found that, in accordance with the ADS, the Mission prepared a PMP that
                 included many of the requirements, such as indicator descriptions, data collection
                 methods, data collection schedules, and assignment of responsibility. In addition,
                 the Mission established baselines for the indicators and reported data for the
                 indicators, which agreed with supporting documentation. The Mission also uses
                 other monitoring tools such as site visits, and the Mission plans to use a data quality
                 assessment checklist as a further check of data consistency. The checklist was
                 developed in FY 2000 and is not yet operational. (see Appendix IV.)

                 Nevertheless, the PMP did not adequately identify data sources, did not include data
                 limitation issues, and did not include adequate quality assessment procedures. We
                 also noted that the Mission did not perform or properly document data quality
                 assessments for the selected HIV/AIDS indicators.




                                                                                                           6
Performance Monitoring
Plan Should Be Improved

The PMP is a performance planning and monitoring tool, which supports “results
focused program management.” ADS guidance lists the performance monitoring
controls to be included in the PMP and by which USAID program managers should
monitor the performance of programs. Specifically, ADS 201.3.4.13(a), indicates
that a PMP must (1) provide a detailed description of the performance indicators to
be tracked; (2) specify the source, (3) specify the data collection method, (4)
establish a schedule for data collection, and (5) assign responsibility for data
collection to a specific office, team, or individual. The PMP must also (6) disclose
the known data limitations, discuss the significance of the limitations for judging the
extent to which goals have been achieved, and describe completed or planned
actions to address these limitations. Finally, the PMP must (7) describe the quality
assessment procedures that will be used to verify and validate the measured values
of actual performance.

However, for all three performance indicators that we reviewed, the PMP did not
adequately identify data sources, did not address data limitation issues, and did not
include data assessment procedures. These weaknesses are explained further below:

Data Source – In explaining this ADS requirement, TIPS No. 7, issued by the
USAID Center for Development Information and Evaluation, states that the
identification of the data source should be as specific as possible so that the same
source could be used routinely, and also to ensure consistency and avoid
misinterpretation. We found that for one indicator, “proportion of persons in
high-risk groups…” the PMP listed (a) Family Health International (FHI), and (b)
“USAID and contractors” as the data source. These are not specific sources.
FHI is a Non-Governmental Organization (NGO) with activities worldwide. FHI
uses not only the Behavioral Surveillance Survey (BSS) but also gathers data
from its various local NGOs, who are responsible for project implementation.
Therefore, at a minimum, the plan should identify which type of FHI data should
be used. In fact, for this BSS activity, FHI contracted with two local consulting
firms, “Cabinet HYGEA” and “ISADE (Institut Superieur Africain pour le
Developpement de l’Entreprise)”.

Similarly, the identification of data sources for the other performance indicators
were not specific. For the indicator, “number of PROTEC brand sales points”,
ADEMAS (Agency for the Development of Social Marketing), a local NGO,
provided the data. However, the PMP listed USAID and contractors as the data
source. Finally, for the performance indicator, “proportion of persons who cite
condoms as means to prevent HIV”, the PMP cited USAID and Macro International


                                                                                          7
as the source, whereas a local NGO, Groupe SERDHA, performed the Health
Indicator Survey.

Data Limitation – Data limitation is described as challenges that an agency faces in
obtaining high-quality performance data or performance data that is unavailable or
of low quality. The ADS 201.3.4.13 requires missions to disclose known data
limitations in the PMP. The PMP provided by the Mission did not disclose any data
limitations for the three performance indicators. However, we found that two of the
performance indicators had limitations, which should have been included in the
PMP. Other Mission documents provided as an “appendix” to the PMP at the end of
our review disclosed several data limitations, such as, sampling frame, questionnaire
design, selection procedures, and training of surveyors as limitations for the data on
the condom use indicators.

Quality Assessment Procedures – ADS 201.3.4.13 requires that the performance
plan contains a description of the quality assessment procedures that will be used to
verify and validate the measured values of actual performance. However, for the
three performance indicators reviewed, the PMP contained no description of the
procedures to be used to perform a quality assessment. A mission summary report
states that the Mission uses spot-checking to ensure the quality of the data of the
BSS. The Mission cites the adequacy of this procedure because of its involvement
in the implementation of the survey. Mission officials also stated that there are no
specific policies and procedures for monitoring performance indicators. The Mission
has developed an assessment tool “Check List for Evaluating the Quality of
Performance Data, May 2000”, which we reviewed and found adequate. However,
the Mission had not started using this checklist.

We believe one reason for the weaknesses in developing the PMP is the Mission’s
misinterpretation of the ADS requirements. The officials questioned the level of
detail required in the PMP. For example, with regard to the data source
requirement, officials felt that listing the primary contractor was adequate. They
stated that the subcontractor information was not available at the time the PMP
was prepared and that it would have been cumbersome to include such detail
information. For the problems pertaining to the lack of data limitation disclosure,
Mission officials referred us to a document entitled “Performance Indicator
Reference Sheet”, which disclosed data limitations for the indicators. Although,
the PMP makes no reference to this document, which was provided near the end
of the audit, the officials stated that it was an appendix to the PMP.

Additionally, the Mission stated that the PMP was incomplete because the health
program at USAID/Senegal has been in a transition phase. Officials pointed out
that the current HIV/AIDS program has only been in existence since October
1999. In fact, between 1997 until 1998, the Mission’s primary activities were
with FHI’s Implementing AIDS Care and Prevention (IMPACT) program, and




                                                                                         8
prior to that, in 1996, the Mission had the AIDS Control and Prevention
(AIDSCAP) program.

The PMP is intended to be used as a management tool. Failure to include specific
sources of data, such as the actual organization that produced the data and the type
of data, would minimize assurance that the data will be consistent from year to year.
Additionally, by not discussing the data limitations in the PMP, project managers
using the PMP may not be aware of all limitations. Finally, without data assessment
procedures there is less assurance that data quality standards would be met.

The requirement to include a description of the data quality assessment procedures is
a new ADS requirement.4 Nevertheless, in addition to our recommendation for
identifying data sources and including data limitation issues in the PMP, we are
recommending that the PMP be amended in line with this new requirement to
describe how the Mission plans to perform data quality assessments for each of its
HIV/AIDS indicators.

        Recommendation No. 1: We recommend that USAID/Senegal update
        the performance monitoring plan to include specific sources of data,
        data limitations and quality assessment procedures.


Data Quality Assessments Should
Be Performed and Documented

USAID policy, as articulated in ADS 203.3.6.5 and 203.3.6.6, requires that data
quality assessments be performed at least every three years for all indicators reported
in USAID’s annual operating units’ Results Review and Resource Request (R4)
reports and for other data included “in special reports to Congress or other oversight
agencies.” Such assessments are intended to ensure that performance information is
sufficiently complete, accurate, and consistent. The guidance further notes that,
when conducting data quality assessments, operating units must:

•   verify and validate performance information to ensure that data are of reasonable
    quality;

•   review data collection, maintenance, and processing procedures to ensure that
    they are consistently applied and continue to be adequate; and

•   retain documentation of the assessment in performance management files (a
    requirement that is in accord with general federal requirements to document
    significant events and to retain such documentation for future examination).


4
 The new PMP requirements were added to the ADS as of September 1, 2000 and became effective
on June 1, 2001.


                                                                                               9
The ADS further notes that “Meeting requirements for data quality assessments need
not be excessively onerous….” The ADS goes on to say that the requirement might
be met by activities such as:

•   reviewing partner reports;

•   making site visits to spot check for reliability; or

•   holding discussions with data source agencies on quality assurance procedures,
    provided these discussions are sufficiently detailed, cross checked, and well
    documented.

However, for the only HIV/AIDS indicator reported in USAID/Senegal’s R4 report,
“Number of private PROTEC-brand sales points,” the Mission did not perform a
data quality assessment. For the other two indicators we audited (see Appendix IV
Indicator 29 & 3), officials referred to trip reports prepared during site visits to
assess program implementation. We found that the trip reports were inadequate.
Among other things the trip reports did not address procedures for periodic review
or sampling of the recipients’ data to ensure completeness, accuracy, and
consistency.

One apparent reason the Mission did not assess the quality of its data is that the
Mission and its primary NGO for the HIV/AIDS activities did not have a system in
place to routinely check for the accuracy of the reported data. In fact, during a field
visit, we found that one NGO had no records at all to support reported data.

      One NGO Had no Records to Support Reported Data – The Society for
      Women Against AIDS in Africa (SWAA) was an NGO we selected for
      the field visits. This NGO supports the USAID HIV/AIDS activities
      through a sub-grant from FHI (Family Health International). SWAA’s
      objective is to help change sexual behavior in young people and women
      in the Louga region of Senegal. Because of the high migrant population
      in Louga, STI/HIV/AIDS has become a big problem.

      SWAA’s peer educators target women and youth to provide them with
      information and counseling to prevent STI/HIV/AIDS. The material is in
      French, Wolof, and Arabic. A referral service is also provided. For
      each activity, the peer educators are required to complete an activity
      report on process indicators such as, the number of peer educators
      trained, number of people reached by small group educational activities,
      number of people referred to STI health facilities, and number of health
      materials and condoms distributed. This information is compiled
      monthly and reported to the regional office in Dakar. The regional
      office reports this data to FHI, which in turn reports the information to




                                                                                          10
     USAID. When we visited the SWAA Louga office to verify some of the
     data reported, we found no source documents. The SWAA
     representative stated that all source documents, including those of the
     previous month, had been burnt due to lack of storage space. No one
     from USAID or FHI was aware of the disposition of the records. The
     SWAA representative confirmed that no one from USAID or FHI had
     ever visited her to verify the records.

Data quality assessments are a key element of USAID's performance monitoring
system. Without such assessments the quality of data being collected and reported is
simply assumed and data limitations, if any, are not documented and recognized. As
a result, flawed data may be reported and erroneous management decisions could be
made based on defective data. Documenting such assessments provides evidence that
they are done and the results are available to successive managers.

While the ADS requirement to do assessments of data outside of those reported in
“special reports”, is not entirely clear, we believe that data quality assessments are
an important management control in ensuring that results are reliable. In addition,
with increased funding for HIV/AIDS and with expanded reporting requirements,
we believe that it is even more urgent that missions ensure the reliability of data
collected for all key indicators used to manage their HIV/AIDS programs.
USAID/Senegal appears to have recognized this deficiency and has developed a
tool kit for performing data assessments in the future. We are therefore making the
following recommendations to improve the Mission’s performance monitoring
system:

     Recommendation No.2: We recommend that USAID/Senegal:

         2.1 Perform and document data quality assessments for the
             indicator “Number of Private PROTEC-brand sales points;
             and

         2.2 Perform data quality assessments for all other HIV/AIDS
             indicators and maintain documentation of such in the
             Mission’s files.


Is USAID/Senegal achieving intended results from its HIV/AIDS program?

In fiscal year 2000, USAID/Senegal achieved its targets for condom sales points.
We were unable to make an assessment for the other two performance indicators
because target information was not due at the time of our review. However, the
Mission's self assessment reveals that the Mission believes that it is achieving its
strategic objective of increased and sustainable use of reproductive health
services.



                                                                                         11
Office of Management and Budget (OMB) Circular A-123 requires that agencies
and individual Federal managers take systematic and proactive measures to
develop and implement management controls for results-oriented management. It
goes on to state that management controls are the policies and procedures used to
reasonably ensure that programs achieve their intended results. These controls
consist of establishing indicators to manage for results, collecting baseline data
for these indicators prior to project intervention, setting targets for these
indicators, periodically collecting data to monitor results, and assessing the
quality of the data being collected.

To answer our second audit objective, we used the same indicators we had
selected for our first objective, i.e.:

•     Number of private PROTEC brand sales points;

•     Proportion of persons citing condoms as means to prevent STI/HIV/AIDS
      transmission, and

•     Proportion of persons in high-risk groups reporting condom use with non-
      regular partner during the most recent sexual act in the past 12 months for
      HIV prevention.

We reviewed USAID activities supporting the above indicators to assess whether
the Mission was achieving its intended results for the HIV/AIDS program. As
shown in the chart below, USAID/Senegal exceeded its target for FY 2000 for the
indicator “Number of Private Brand Sales Points5”(see graph below).


                                       Number of Sales
           Fiscal Year
                                           Points
                                    Target        Actual
        1998 (baseline)              N/A           1746
        2000                         2000          2052

Number of Condom Sales Points – Condom accessibility and use are major
components of USAID/Senegal’s HIV/AIDS program. As such, the Mission’s
HIV/AIDS intermediate result goal is an expanded network of private sector
service delivery points for the condom brand PROTEC. Since June 1998, the
Mission has carried out a social marketing program to promote condom use
through ADEMAS (an NGO). ADEMAS, which has partnered with
organizations in the private sector such as distributors, wholesalers, trade unions,




5
    Figures obtained from USAID/Senegal’s FY 2003 R4 and are unaudited.


                                                                                       12
and community health committees, is supported by USAID through the
Commercial Marketing Strategy (CMS). In June 1997, ADEMAS’s distribution
system was extended to non-pharmaceutical sales points in the private
commercial sector. These non-pharmaceutical sales points are located in urban
and peri-urban areas throughout Senegal. They include coffee shops, bars,
restaurants, bus stops, hotels, nightclubs, supermarkets, hair salons, cosmetics
shops, telephone kiosks, and gas station-based mini markets. The Mission uses the
indicator, “number of condom sales points” to measure access to condoms and the
expansion of the PROTEC sales network from the urban centers to the most rural
areas of the country. The chart below indicates the current points of sale in
Senegal6.



                      Chart Showing Number of Sales Points
                              Distribution Network



                                   Pharmacies




                                              Supermarkets




       Supermarkets                 Telephone Centers            Bars/Nightclubs
       Hotels/Restaurants           Gas Stations                 Offices
       Hair Salons                  Pharmacies


The number of sales points data is provided by ADEMAS from a sales database.
The data originate from daily reports prepared by ADEMAS’ promoters, as they
visit each point of sale. During our visit to ADEMAS, we verified the supporting
documentation for the data reported by USAID.

Behavioral Change – Establishing safer sexual behavior has probably been the
most important area of programming for most national HIV/AIDS programs to
date. Programs seek to delay first sex among young people and encourage
lifelong mutually monogamous partnerships. Because such partnerships are more
the exception than the norm in many cases, programs also encourage reducing the
overall number of sexual partners and using condoms, especially with partners
other than one's spouse. The indicators "proportion of persons citing condoms…"
and "proportion of persons in high-risk groups…" both measure behavior
6
    Figures obtained from ADEMAS Sales Reports and were audited by RIG/Dakar.


                                                                                    13
changes. At the time of the audit, target data was not yet available for these two
indicators. A BSS study was in process (but not yet completed) that would
provide data on the indicator "proportion of persons in high-risk groups…" in
2001; and the target date for data on the indicator "proportion of persons citing
condoms…" is projected for 2003.

Working with NGOs, USAID/Senegal has several programs designed to
encourage condom use. The activities of one such NGO that we visited are
described below.

    Association for Women at Risk for AIDS
    The Association for Women at Risk for AIDS (AWA) is an NGO conducting
    USAID HIV/AIDS activities through a subgrant from FHI. As part of the
    audit, a team of OIG, USAID/Senegal, FHI, and AWA personnel from Dakar
    visited the AWA office in Mbour, Senegal. AWA’s activities include training
    “peer educators” who would in turn train commercial sex workers (CSWs) and
    their clients about STI and AIDS; and targeting and encouraging clandestine
    CSWs (unregistered prostitutes) to register. AWA officials explained that
    registered CSWs are required to have regular check-ups and, as a result, it is
    easier to monitor their activities. At the AWA office, we observed a social
    worker counseling a CSW and using an instructional device to demonstrate the
    proper use of a condom.




    Photograph of NGO discussing HIV/AIDS issues with clients of CSWs (August 2001)


    The team also visited a “clandestine house” to observe AWA activities. The
    house was a large fenced compound with several “huts”, which unregistered
    sex-workers use with their clients. AWA would occasionally coordinate with
    the proprietor to have an outreach program session. The proprietor would
    invite sex workers and their clients, and AWA would make a presentation to
    provide information on HIV/AIDS. We learned that there are many such
    clandestine houses in the Mbour area and they are often raided by the police.


                                                                                      14
    The proprietor was skeptical of outsiders but because the AWA staff had a
    good relationship with him, he allowed us to visit and interview him.
    On the occasion of our visit, there were several men who appeared to be
    regulars. The proprietor confirmed that AWA came from time to time to do
    presentations. The proprietor found the presentations beneficial and stated that
    he would like to have them more frequently. He added that he always made
    condoms available for the sex workers. The other men agreed that they found
    AWA’s activities useful. They were aware that they needed to use condoms to
    prevent HIV/AIDS.




Photograph of NGO officials explaining how the female condom works. (August 2001)

      To measure its performance and to collect HIV/AIDS data, AWA maintains
      records of its activities, which it reports to FHI and then to USAID. During
      the visit, we tested some of the data from FHI pertaining to the AWA field
      office. We found supporting documentation for the data we tested.
      However, we learned that USAID and FHI never visited to check the data
      reported.


What is the status of USAID/Senegal’s efforts to meet anticipated HIV/AIDS
reporting requirements?

USAID/Senegal has initiated steps to implement an improved monitoring and
reporting system appropriate to its low prevalence of 1.4%. Specifically, the
Mission 1) provided program managers with additional training, 2) is working
with other partners to expand and improve the HIV/AIDS surveillance system,
and 3) plans to identify monitoring indicators for new program elements. Based


                                                                                     15
on its current activities and plans, USAID/Senegal officials believe that they
would be able to meet future HIV/AIDS reporting requirements in USAID’s
newly drafted guidance.

Due to the significant increase in HIV/AIDS funding from 1999 to 2001, there has
been a great deal of interest in monitoring the results of USAID’s assistance in
this area. In March 2000, USAID's Global Bureau developed a handbook of
standard indicators that operating units could use to measure the progress of their
HIV/AIDS programs. In March 2001, the U.S. General Accounting Office
(GAO) issued its report entitled “USAID’s Fight Against HIV/AIDS in Africa”,
which reported the need to be able to better monitor progress (see page 5). In its
report, GAO recommended that USAID’s operating units adopt standard
indicators to measure program performance, gather performance data on a regular
basis, and report data to a central location for analysis.

To improve the monitoring process for its HIV/AIDS program, USAID has
drafted monitoring and evaluation guidance entitled “USAID’s Expanded
Response to the Global HIV/AIDS Pandemic”. This new guidance establishes
several global targets USAID expects to achieve with its additional funding and
requires missions to routinely monitor and evaluate their HIV/AIDS programs in
a definitive, systematic way and to report on their progress. As an intensive focus
country, the draft guidance would require USAID/Senegal to collect and report
information at three levels. The following is a description of the levels and
USAID/Senegal’s status:

•   At the first level, USAID/Senegal would be required, by 2007, to develop a
    national sentinel surveillance system to report annually on HIV prevalence rates
    so as to measure the overall effect on the pandemic of national HIV/AIDS
    prevention and mitigation programs. The standard indicator for this
    measurement, according to the draft guidance, would be HIV prevalence rates
    for 15-24 year olds. USAID/Senegal expects to have a surveillance system in
    place before the 2007 deadline. Mission officials informed us that, in the future,
    USAID/Senegal plans to work with the Ministry of Health to expand, strengthen,
    and improve the national sentinel surveillance system that is currently being
    implemented by the National Bacteriology and Virology Laboratory. This
    second generation surveillance system has the following three components,
    epidemiological and behavioral surveillance and a combined version of the two,
    targeting “bridge” groups such as clients of commercial sex workers who
    interact with both low and high risk groups.

•   The second level would require the Mission to conduct standardized national
    sexual behavior surveys every 3-5 years, beginning in 2001. USAID/Senegal has
    already conducted the BSS in 1997 and 1998 and one is currently underway for
    2001. The Mission plans to continue the survey every two years. Standard
    indicators proposed in the draft guidance for this area are “number of sexual
    partners" and "condom use with last non-regular partner.” We noted that the


                                                                                         16
    proposed standard indicators are in the current BSS questionnaire for only
    CSWs, the questionnaire for the other groups is slightly different. Mission
    officials explained that the BSS is focused on target groups and the questions are
    more specific. For example, the indicator in the questionnaire for youth is
    “number of sexual partners in the last 30 days.” USAID/Senegal needs to
    coordinate with USAID/Washington to ensure that its indicators would meet the
    proposed requirement.

•   At the third level, missions would be required to report annually, not only on
    trends at the national level - which may or may not directly reflect USAID-
    funded activities - but on progress toward implementing USAID's HIV/AIDS
    programs and increasing the proportion of the target population covered by
    these programs. The draft guidance lists seven standard indicators that
    missions might use to measure progress in selected program areas.
    USAID/Senegal presently has data on two of the standard indicators: total
    condoms sold, and percentage of STI cases treated according to national
    standards. The Mission plans to open four voluntary counseling and testing
    centers, with one scheduled to be operational in December 2001. Then the
    Mission would be able to report on a third standard indicator, proportion of
    target population requesting HIV test and receiving counseling.

In summary, USAID/Senegal management stated that they will be able to meet
reporting requirements for collecting all three levels of data anticipated by the
draft guidance. They anticipate that a national sentinel surveillance system should
be in place before the 2007 deadline. Furthermore, a BSS required by 2001 has
been in place since 1997, and the Mission believes that it should be able to report
on its progress towards implementing its HIV/AIDS programs.




                                                                                         17
Management       In response to the draft report, USAID/Senegal generally accepted our
Comments and     recommendations to update its Performance Monitoring Plan (PMP) and to
Our Evaluation   perform and document data quality assessments for all the indicators used to
                 monitor the performance of its HIV/AIDS program. The Mission stated that as an
                 example of action taken since the audit, in January 2002, the Mission has began
                 using the checklist for assessing the quality of performance data that was
                 developed in May 2000.

                 Recommendation No.1 calls for the Mission to update the PMP to include specific
                 sources of data, data limitations, and data assessment procedures. The Mission
                 agreed that it is time to update the PMP and we applaud the Mission on its
                 planned actions. The Mission stated that the revisions to the PMP will consist of
                 referencing the current annexes, “the Performance Data Table” and “the
                 Performance Indicator Reference Sheets,” to the PMP. The Mission, also, pointed
                 out that these annexes provide a more detailed description of data sources, data
                 limitations, and quality assessment procedures. The Mission stated that although
                 the PMP, at the time of the audit, did not make reference to the annexes, data
                 assessment procedures and data limitations did exist and were included in the
                 annex documents. Concerning the annex documents, not only did the PMP not
                 make references to the annexes, but also, the key personnel who were questioned
                 about the PMP did not refer the auditors to the annexes. We believe the PMP
                 including all its components is a useful management tool when updated regularly
                 and made accessible to all staff responsible for the management of the program.

                 Recommendation No. 2.1 and 2.2 asked the Mission to perform and document
                 data quality assessments for all indicators used to manage its HIV/AIDS program.
                 The Mission stated in its response that it has started performing data quality
                 assessments for HIV/AIDS/Sexually Transmitted Infections indicators in the PMP
                 and will verify contractor reports during field visits and cross check the data
                 generated. Regarding other general comments and suggestions made by
                 USAID/Senegal, in some instances, we clarified certain ideas as suggested by the
                 Mission to better reflect the information presented in the report.

                 Based on the Mission’s responses and actions started, management decisions have
                 been reached on all three recommendations. To close these recommendations,
                 USAID/Senegal should submit evidence of final actions to USAID’s Office of
                 Management Planning and Innovation, Management Innovation and Control
                 Division (M/MPI/MIC).




                                                                                                     18
                                                                                     Appendix I

Scope and     Scope
Methodology
              The USAID/Dakar Regional Inspector General conducted this audit in accordance
              with generally accepted government auditing standards. The purpose of the audit
              was to determine (1) if USAID/Senegal was monitoring performance of its
              HIV/AIDS program in accordance with Automated Directives System (ADS)
              guidance, (2) if USAID/Senegal is achieving intended results from its HIV/AIDS
              programs, and (3) the status of USAID/Senegal’s efforts to meet anticipated
              HIV/AIDS reporting requirements. The audit covered three of the twenty
              HIV/AIDS indicators in USAID/Senegal’s performance monitoring plan. The
              three indicators represent major aspects of the Mission’s HIV/AIDS program
              which include a) condom sales activities by the Agency for the Development of
              Social Marketing (ADEMAS) and b) knowledge and behavior change activities
              by Family Health International (FHI). The Mission confirmed that the selected
              indicators were a good representation of the Mission’s HIV/AIDS activities.
              Determination as to whether intended results had been achieved was based on the
              fiscal year 2000 results. In evaluating for intended results, we recognized that in
              many cases other entities—as well as the host country—also participated in
              achieving these results. Fieldwork was conducted at USAID/Senegal, FHI, the
              Society for Women Against AIDS (SWAA), and the Association for Women at
              Risk for AIDS (AWA) in Dakar, Louga, and Mbour from August 9 through
              September 18, 2001.

              For fiscal year 2000, target data were not available for two of the three indicators
              selected. The data were not due until the end of 2001 and 2003, so they could not
              be evaluated at the time of the audit. The baseline data for the indicator
              “proportion of persons in high risk group reporting condom use…” was collected
              in 1998; and the baseline data for the indicator “proportion of persons citing
              condoms…” was collected in 1999. Data collection is planned every three to four
              years. Thus, the next scheduled data collection is projected for 2001 and 2003,
              respectively. As such, targets have been established for that time frame. To
              evaluate USAID/Senegal’s achievements for its HIV Program, we used
              performance results reported by ADEMAS to measure the number of private
              PROTEC-brand sales points. RIG/Dakar visited the ADEMAS office in Dakar on
              September 18, 2001 to ensure reliability of the data. We tested supporting
              documentation to ensure completeness, accuracy, and consistency. We relied on
              the results from the testing and statements by ADEMAS personnel to assess data
              quality.

              Our review of management controls focused on USAID/Senegal’s performance
              monitoring plan and how well the Mission complied with USAID, OMB, and
              GAO policies and guidance. Specifically, we assessed the Mission’s internal
              controls for identifying and monitoring performance indicators, reporting data for


                                                                                                     19
the baseline, and determining whether quality data is collected, maintained, and
processed per ADS guidance. In the FY 2000 Management Control Report,
USAID/Senegal reported that its management controls generally complied with
the Federal Manager’s Financial Integrity Act of 1982 and OMB Circular A-123.
There were no material weaknesses pertaining to USAID/Senegal’s HIV/AIDS
program in the report.

Methodology

To answer the first audit objective, we reviewed the Mission’s performance
monitoring plan and compared it to the requirements set forth in USAID's ADS,
specifically chapters 201 and 203. We judgmentally selected a sample of three
from a total of twenty performance indicators that USAID/Senegal uses to
manage its HIV/AIDS program. Mission officials agreed that the three
performance indicators were representative of the indicators used to manage its
HIV/AIDS program. We determined if data sources were specified, data quality
assessments and procedures were completed, baselines were established, and if
data agreed to source documents. We also obtained information to determine
what other methods were being used by the Mission for monitoring its HIV/AIDS
program.

To answer the second objective, we analyzed planned and actual data for the
indicators presented in the Mission's Results Review and Resource Request (R4).
For the number of private PROTEC brand sales points, we reviewed ADEMAS
activity reports and traced actual data to source documents. To answer the third
objective, we reviewed “USAID's Handbook of Indicators for HIV/AIDS/STI
Programs” and "USAID's Expanded Response to the Global HIV/AIDS
Pandemic" (draft dated February 2001), and the status of the Mission's
implementation of this guidance.

For all the above efforts, we reviewed applicable Federal and USAID regulations
and guidance, interviewed Mission officials and reviewed Mission documents;
interviewed project officials and reviewed project documents; interviewed
program recipients; and visited program sites.

We traveled to the cities of Mbour and Louga to visit two local Non-
Governmental Organizations that are responsible for implementing activities
pertaining to USAID/Senegal’s HIV/AIDS Programs. In Louga and Dakar, we
visited SWAA. SWAA’s principle activities include information, education, and
communication intervention aimed at changing behavior in select targeted groups
such as women, clandestine sex workers and their partners, and youth in the
Ziguinchor region of Senegal. In Mbour, we visited AWA whose activities target
Commercial Sex Workers (CSWs) and their clients through peer education
activities in bars, hotels, and brothels. The goal of this initiative is to provide HIV
prevention counseling to practice safer sex, to improve clandestine sex worker’s



                                                                                          20
access to health services, and to encourage clandestine sex workers to become
registered.

In assessing accuracy, we used two materiality thresholds. First, for transcription
error, we used an accuracy threshold of plus or minus one percent. Second, for
computation accuracy we used an accuracy threshold of plus or minus five
percent.




                                                                                      21
                                                                                     Appendix II
                                                                                      Page 1 of 6



Management
Comments:




                                                       U.S.A.I.D. / SENEGAL
                                                               memorandum


                   DATE:        January 31, 2002
               REPLY TO:        Donald B. Clark, DIR

                SUBJECT:        USAID Response to Audit Report on HIV/AIDS Program

                     TO:        Henry Barrett, RIG
                     RE:


        Please find attached USAID's comments to your draft audit report of
        January 4, 2002. I hope you find our comments useful in preparing the
        final report. Please do not hesitate to contact us if you have any
        questions.

        We want to thank you and your staff for the very useful observations and
        recommendations made to improve the quality of our HIV/AIDS
        program.




                                                                                                    22
                                                                                          Appendix II
                                                                                           Page 2 of 6


     USAID/SENEGAL Response to the Audit of the Monitoring of the
    performance of its HIV/AIDS program (Report No 7-685-02-00X-P)
USAID comments on recommendations
USAID/Senegal generally accepts the three recommendations made by the audit team with
the following comments and observations. However, it would like to provide specific
information regarding the recommendations and make general comments and suggestions
about the articulation of certain ideas in the draft report.

Recommendation No. 1: We recommend that USAID/Senegal update the performance
monitoring plan to include specific sources of data, data limitations and quality assessment
procedures.

USAID accepts this recommendation and agrees that it is time to update the PMP

Updating the PMP
The current PMP consists of a booklet with several annexes. It is important to recognize the
PMP as a functional document for a program that is constantly evolving. It is not republished
each time new information becomes available. The current annexes include the Performance
Data Table and the Performance Indicator Reference Sheet that provide a more detailed
description of data sources, data limitations, and quality assessment procedures. The revision
of the PMP will consist of referencing these same annexes in the main booklet and inserting
two additional columns entitled “data limitations” and “quality assessment procedures ” in the
table in the main booklet.

Data source
The Audit concluded that USAID did not fully disclose all data sources. The Mission will
document additional data sources (sub-grantees) to the primary source (FHI) as these become
known, but it is important to recognize that the list of sub-grantees is constantly increasing as
the program expands. It is important to also state that FHI is responsible for the identification
of new data sources. The Performance Data Table located as an annex to the PMP now
contains the requested information on secondary data sources.

Data limitation
The Audit concluded that the data limitation documents was provided late. The mission
acknowledges that the annex (Performance Indicator Reference Sheet) that contains data
limitation information was not included in the initial set of documents provided to the
Auditors. However it was provided to the auditors during the Audit period. USAID
acknowledges that the late submission may have been inconvenient to the Auditors but
rejects the insinuation that this annex was prepared during the Audit. In the revised PMP, the
Mission will reference the Performance Indicator Reference Sheet as an official annex to the
PMP.

Data Quality Assessment procedure.
The Audit team concluded that the PMP booklet does not contain procedures to perform data
quality assessments. Mission acknowledges that while the current PMP booklet does not
adequately include these procedures, they do exist in the Performance Indicator Reference
Sheet. USAID has developed a checklist that is being used to monitor the quality of data.
USAID agrees to further strengthen in the updated PMP the description of procedures for
                                                                                                    23
                                                                                         Appendix II
                                                                                          Page 3 of 6


satisfactory and excellent work performed by implementation agencies instead of just
focusing on those that have not complied with the requirements.

Page 11: Paragraph 2: ”USAID/Senegal appears to have recognized this deficiency and has
developed a tool kit for performing data assessment in the future.”

Comment: The Mission notes that this is an insinuation that implies that the Mission did not
have a tool kit for performing data assessment but rather designed one halfway through the
audit process. In fact, the Mission completed this document in May 2000.

Page 13: Number of Condom Sales Points ”The Mission believes condom sales points are a
proxy indicator of condom use, and a variety of points will increase accessibility”

Comment: The Mission does not use condom sales points as a proxy indicator for condom
use. It uses this indicator to measure access to condoms and the expansion of the PROTEC
sales network from the urban centers to the most rural areas of the country. The indicator
”Use of condom” is measured on a regular basis by a different survey such as a BSS and
serves to track behavior change.

Page 17: Paragraph 4 “At the first level, USAID/Senegal would be required, by 2007, to
develop a national sentinel surveillance system to report annually on HIV incidence rates so
as to measure the overall effect on the pandemic of national HIV/AIDS prevention and
mitigation programs. The standard indicator for this measurement, according to the draft
guidance, would be HIV prevalence rates for 15-24 year olds.”

Comment: It should be clearly mentioned which data are required – incidence or prevalence
data. The Mission supports the Ministry of Health in its generation of prevalence data, not
incidence data. Incidence data requires specified procedures and methodology that are not
part of this national surveillance system. USAID would like further verification that the new
USAID policy would in fact require incidence data, in which case USAID will put in place a
system to collect this required data.

Paragraph 4: “USAID/Senegal expects to have a surveillance system in place before the 2007
deadline. Mission officials informed us that USAID/Senegal and the Center for Disease
Control (CDC) are working with an NGO:”

Comment: The Ministry of Health does currently have a national sentinel surveillance system
that is implemented by the National Bacteriology and Virology Laboratory. In the future, the
Mission plans to expand, strengthen, and improve this national sentinel surveillance system.

Page 18 Paragraph 1: “Our review of the 2001 BSS questionnaire shows that the survey does
not specifically measure prevalence rates. USAID needs to ensure that the measurement is
included in future studies.”

Comment: BSS are not designed to measure prevalence rates but rather to provide behavioral
data such as information about use of condom. Prevalence data are generated by the national
epidemiological surveillance system.



                                                                                                        24
                                                                                        Appendix II
                                                                                         Page 4 of 6



General comments and suggestions
The Mission would like to make general comments and suggestions about the articulation of
certain ideas in the draft report.

Page 7 Data source:
Paragraph 2: “FHI uses not only the Behavioral Surveillance Survey (BSS) but also gathers
data from its various local NGOs, who are responsible for project implementation.
Therefore, at a minimum, the plan should identify which type of FHI data should be used. In
fact, for this BSS activity, FHI contracted with two local consulting firms, “Cabinet HYGEA”
and “ISADE (Institut Superieur Africain pour le Developpement de l’Entreprise)”.

Comment: In this section, two types of data sources are compared: the routine monitoring
system that provides process data and is classified in the PMP at the IR level and the BSS that
generates data related to behavior change and is classified in the PMP at the SO level. The
BSS is a very specific methodology that periodically measures behavior change among
defined groups based on a theoretical behavioral framework. Any qualified firm with proven
statistical competencies can implement it and obtain the same results; the fact that two
different firms conducted the two BSS does not affect the consistency of the data.

Page 8 Data limitation:

Paragraph 1 “The PMP provided by the Mission did not disclose any data limitations for the
three performance indicators.”

Suggestion: The Mission suggests that the Audit team remove this sentence from the text,
because it contradicts the last sentence in the paragraph, which states that Mission documents
disclosed data limitations.

Paragraph 1 “However, we found that two of the performance indicators had limitations,
which should have been included in the PMP.”

Suggestion: The Mission suggests that this sentence be rephrased as “should have been stated
in the PMP rather than referenced as a document in the annex.”

Paragraph 2: “However, for the three performance indicators reviewed, the PMP contained
no description of the procedures to be used to perform a quality assessment. A mission
summary report states that the Mission uses spot-checking to ensure the quality of the data of
the BSS.”

Comments: This trip report is a part of the Data Quality Assessment document, which is
referenced in the PMP.

“Mission officials also stated that there are no specific policies and procedures for
monitoring performance”

Comments: The Mission suggests that this assertion be removed as it does not reflect the
situation and is contradictory to the next sentence, which states that a Checklist for
Evaluating the Quality of Performance Data exists.

                                                                                                       25
                                                                                           Appendix II
                                                                                            Page 5 of 6


Paragraph 3: “One reason for the weaknesses in developing the PMP is the Mission’s
misinterpretation of the ADS requirements.»

Comments: The Mission would like to highlight a difference in the interpretation of ADS
Requirements between the Audit team and USAID officials and suggests that this sentence be
rephrased accordingly

Paragraph 4: “Additionally, the Mission stated that the PMP was incomplete because the
health program at USAID/Senegal has been in a transition phase. Officials pointed out that
the current HIV/AIDS program has only been in existence since October 1999. In fact,
between 1997 until 1998, the Mission’s primary activities were with the IMPACT program,
and prior to that, in 1996, the Mission had the AIDSCAP program.”

Comments: The Mission would like to remind the Audit team that the PMP is an evolving
document that the team uses as a management tool. USAID awarded FHI a cooperative
agreement in May 2000, and the PMP cannot be finalized until the contractor has identified
all of its sub-grantees. This is still a work in progress as the contractor has not identified and
signed all sub-grants.

Page 9: Paragraph 1 «Additionally, by not discussing the data limitations in the PMP,
project managers using the PMP may not be aware of all limitations. Finally, without data
assessment procedures there is less assurance that data quality standards would be met.»

Comment: Data limitations are described and defined in the annex of the PMP and program
managers consider it an integral part of the PMP. The Mission suggests that this negative
speculation be removed.

Page 10:
Paragraph 2: “Among other things the trip reports did not address procedures for periodic
review or sampling of the recipients’ data to ensure completeness, accuracy, and
consistency.“

Comment: The trip reports provided to the Audit team describe visits made to verify certain
conditions (well-designed questionnaire, well-trained enumerators, well-structured survey
teams, periodic supervision at all levels) that ensure that quality data will be collected for the
BSS and ESIS surveys. The spot check is a commonly used quality assessment technique
that can check the quality of data generated by a routine reporting system but that cannot
check the quality of surveys such as BSS and ESIS. Other assessment techniques such as
post enumeration and sampling are not meant to ensure quality data but rather to provide a
rough estimation of the survey findings.

Paragraph 3: “One apparent reason the Mission did not assess the quality of its data is that
the Mission and its primary NGO for the HIV/AIDS activities did not have a system in place
to routinely check for the accuracy of the reported data. In fact, during a field visit, we found
that one NGO had no records at all to support reported data.“

Comment: The Mission agrees to strengthen its procedures. However we must recognize that
spot-checking is a random process, not a thorough examination, and can easily overlook
certain occurrences. The Mission would like to encourage the Audit team to mention
                                                                                                          26
                                                                              Appendix II
                                                                               Page 6 of 6


data checks at the sub-grantee level by program managers during field trips. As an example
of action taken since the audit, in January 2002, USAID started using the checklist for
assessing the quality of performance data developed in May 2000.

Recommendation 2: USAID/ Senegal
2.1 Perform and document data quality assessments for the indicator “Number of Private
PROTEC brand sales points” and

2.2 Perform data quality assessments for all other HIV/AIDS indicators and maintain
documentation of such in the Mission’s files.

Comment: The following procedures will be adopted: 1) update the PMP, 2) require
secondary data checks, 3) require FHI to develop their own system for secondary data checks,
and 4) document observations made by program managers during field trips. The Mission
will reinforce data quality assessment and generate a field monitoring report according to
ADS requirements. Recently, the Mission started performing data quality assessments for the
ten HIV/AIDS/STI indicators in the PMP and will verify contractor reports during field visits
and cross check data generated.




                                                                                             27
                                                                                         Appendix III



Rapid Scale-Up, Intensive Focus, and Basic Countries

•   Rapid Scale-Up Countries are defined as countries that will receive a significant increase in
    resources to achieve measurable impact within one-to-two years. This will result in an extremely
    rapid scaling up of prevention programs and enhancement of care and support activities. Rapid
    Scale-Up countries include:

    Cambodia        Kenya        Uganda        Zambia

•   Intensive Focus Countries are defined as countries where resources will be increased and targeted to
    reduce prevalence rates (or keep prevalence low in low prevalence countries), to reduce HIV
    transmission from mother to infant and to increase support services for people (including children)
    living with and affected by AIDS within three-to-five years. Intensive Focus Countries include:

    Ethiopia                              Nigeria                      Brazil
    Ghana                                 Rwanda                       India
    Malawi                                Senegal                      Russia
    Mozambique                            South Africa
    Namibia                               Tanzania

•   Basic Countries are defined as countries where USAID will support host country efforts to control
    the pandemic. USAID programs will continue to provide assistance, focusing on targeted
    interventions for populations who engage in high-risk behavior. In these countries, there will be an
    increased emphasis on maintaining credible surveillance systems in order to monitor HIV trends and
    allow timely warning of impending concentrated epidemics of HIV. In addition, USAID will assist
    country institutions to identify additional sources of funding to expand programming.




                                                                                                           28
                                                                                                                                                                                                   Appendix IV




 SUMMARY OF USAID/SENEGAL’S SELECTED PERFORMANCE MONITORING CONTROLS

                                                               Performance Monitoring Plan
 Indicator
                       1.                2.               3.               4.               5.                 6.                7.              8.               9.             10.                    11.
Number and
                    Indicator          Data             Data             Data          Responsibility         Data             Quality          Data           Baseline         Data      Other Means of Monitoring
 Indicator
                    Precisely         Sources         Collection       Collection        Assigned          Limitations       Assessment       Quality         Established      Agrees        (If yes, indicate type)
  Name:
                     Defined         Identified        Method          Schedule                            Disclosed*        procedures      Assessment                          To
                                                      Described        Specified                                             described*       Done**                           Source

    #3                  Y                N                Y                Y                 Y                  N                 N                N               Y             Y               Y-Trip Report



   #23                  Y                N                Y              Y***                Y                N/A                 N                N               Y             Y                Y-site visits
                                                                                                             (none                                                                          No trip report available
                                                                                                          encountered)

   #29                  Y                N                Y                Y                 Y                  N                 N                N               Y             Y               Y-Trip Report




 Performance Indicator No.3: Proportion of persons in high -risk groups reporting condom use with non-regular partner during the most recent sexual act in the past 12 months for HIV prevention
 Analysis of Performance Indicator No.23: Number of private PROTEC-brand sales points
 Analysis of Performance Indicator No.29: Proportion of persons who cite condoms as a means to prevent STI/HIV/AIDS transmission

 *Note that these requirements were added to the ADS as of September 1, 2000, and must be implemented starting June 1, 2001.
 **Per the ADS data quality assessments are required for indicators used to report progress in the annual Results Review and Resource Request (R4) report, and for data included in special reports to Congress or other
 oversight agencies, such as annual HIV/AIDS or micro-enterprise reports.
 ***Frequency specified in the PMP, however, the Mission did not adhere to schedule.




                                                                                                                                                                                                                    29
